la
APPENDIX A

FILED
April 14, 2021
MOLLY C. DWYER, Clerk
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Henryk S. Borecki,
Plaintiff-Appellant,
v.
United States Department of Homeland
Security; Arizona Department
of Transportation,

No. 21-15572
D.C. No. 2:21 -cv-00415-MTL
District of Arizona
Phoenix
ORDER

Defendants-Appellees.
Before: CLIFTON, MURGUIA, and BRESS, Circuit Judges.
A review of the record demonstrates that this court lacks jurisdiction over
this appeal because the order challenged in the appeal is not final or appealable.
See WMXTechs., Inc. v. Miller, 104 F.3d 1133, 1136 (9th Cir. 1997)(en banc)
(dismissal of complaint with leave to amend is not appealable). Consequently, this
appeal is dismissed for lack of jurisdiction.
DISMISSED.

2a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Henryk S. Borecki,

No. CV-21-00415-PHX-MTL

Plaintiff,

ORDER

v.
United States Department of Homeland
Security, et al.,
Defendants.

Pending before the Court are pro se Plaintiffs Complaint (Doc. 1) and
Application to Proceed in District Court Without Prepaying Fees or Costs. (Doc.
2.) For the following reasons, the Court exercises its authority pursuant to 28
U.S.C. § 1915(e)(2) and dismisses Plaintiffs Complaint with leave to amend.
I.

LEGAL STANDARDS
When a party seeks to proceed in forma pauperis, as Plaintiff does here,

the Court “shall dismiss the case at any time if the court determines that —
(A) the allegation of poverty is untrue; or
(B) the action or appeal —
(i) is frivolous or malicious;
(ii) fails to state a claim on which relief may be granted: or
(iii) seeks monetary relief against a defendant who is immune
from such relief.”
28 U.S.C. § 1915(e)(2). “While much of the § 1915 outlines how prisoners can
file {2} proceedings in forma pauperis, § 1915(e) applies to all in forma pauperis
proceedings, not just those filed by prisoners.” Long v. Maricopa Cmty. College
Dist., 2012 WL 588965, at * 1 (D. Ariz. Feb. 22, 2012)(citing Lopez v. Smith,
203F.3d 1122, 1126 n. 7 (9th Cir. 2000)(“[S]ection (e) applies to all in forma
pauperis complaints[.]”).

3a
A complaint is frivolous if it is based on a nonexistent legal interest or
delusional factual scenario. Nietzke v. Williams, 490 U.S. 319, 327-30 (1989); see
also Denton v. Hernandez, 504 U.S. 25, 32-33 (1992)(dismissal is also
appropriate when the facts alleged are “clearly baseless,” “fanciful,” “fantastic,”
or “delusional”). A district court judge has “not only the authority to dismiss a
claim based on an indisputably meritless legal theory, but also the unusual power
to pierce the veil of the complaint’s factual allegations and dismiss those claims
whose factual contentions are clearly baseless.” Nietzks, 490 U.S. at 328.
In addition to being nonfrivolous, Rule 8(a) of the Federal Rules of Civil
Procedure requires a complaint to contain a short and plain statement of the
grounds for the court’s jurisdiction, a short and plain statement of the claim
showing the pleader is entitled to relief, and a demand for the relief sought. See
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007); Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009).
II.

ANALYSIS
A. Plaintiffs Complaint
The Court finds that Plaintiffs Complaint fails to state a claim upon which

relief may be granted. Plaintiff provides two claims for relief. (Doc. 1.) First,
Plaintiff asserts “Constitutional, Statutory & Tortious Error by the State of
Arizona and State Officials.” {Id.

10-13.) In this first claim, Plaintiff also raises

statutory and constitutional concerns regarding the Arizona Department of
Transportation’s failure to issue him a “Real Travel ID.” (Id.) Besides stating
these legal conclusions, Plaintiff does not tie in facts to show why these specific
legal theories apply to his first cause of action. (Id.) Second, Plaintiff asserts
“Constitutional, Statutory & Tortious Negligent Entrustment against the United
States of America and Federal Officials.” (Id.

14-16.) Plaintiff again alleges

that this {3} second cause of action includes multiple statutory violations, such as
depriving persons of rights or privileges and obstructing justice. (Id. ) Plaintiff
again does not tie in any facts to these legal theories. (Id.)
These allegations — to the extent they are construed as such — do not
warrant consideration by this Court. The Complaint fails to state a claim because

4a
its alleged facts are not “plausibly suggestive of a claim entitling the plaintiff to
relief’ and have not “raise[d] a reasonable expectation that discovery will reveal
evidence” of a claim. See Twombly, 550 U.S. at 556. The Complaint cc-ntains only
conclusory legal allegations about how the Arizona Department of Transportation
and certain United States officials failed to provide Plaintiff with a “Real Travel
ID.” Although Plaintiff provided a statement of facts, he did not connect those
allegations to his multiple legal conclusions or show how the facts alleged are
relevant to his multiple legal conclusions or show how the facts alleged are
relevant to his claims for relief. Plaintiff only mentions that he was denied this
identification card and was sent “on a search for a document” which he “could not
possibly apply.” (Id. H 9.) This Complaint does not contain “simple, concise, and
direct” allegations as required. Fed. R. Civ. P. 8(d)(1). The Complaint will be
dismissed.
B.

Leave to Amend

If a defective complaint can be cured, the plaintiff is entitled to amend the
complaint before the action is dismissed. See Lopez v. Smith, 203 F.3d 1122,
1127-30 (9th Cir. 2000). Therefore, Plaintiff will be given one opportunity to
amend the Complaint. Any amended complaint must contain sufficient factual
allegations to state a claim for relief and must otherwise conform to the
requirements of the Federal Rules of Civil Procedure.
If Plaintiff elects to file an amended complaint and fails to comply with
the instructions given in this order, the action will be dismissed pursuant to
section 28 U.S.C. § 1915(e) and/or Rule 41(b) of the Federal Rules of Civil
Procedure.
III.

CONCLUSION
Accordingly, {4}
IT IS ORDERED that, pursuant to 28 U.S.C. § 1915(e)(2), the Complaint

(Doc. 1) is dismissed without prejudice for failing to state a claim upon which

5a
relief may be granted. Plaintiff has permission to file an amended complaint by
April 12,2021.
IT IS FURTHER ORDERED that Plaintiffs Application to Proceed in
District Court Without Prepaying Fees or Costs (Doc. 2) is granted.
IT IS FURTHER ORDERED that if Plaintiff elects to file an amended
complaint, the amended complaint my not be served until and unless the Court
screens the amended complaint pursuant to 18 U.S.C. § 1915(e)(2). If Plaintiff is
given leave to serve an amended complaint, Plaintiff shall be responsible for
service of the summons and complaint.
Dated this 22nd day of March, 2021.
Michael T. Liburdi
United States District Judge

Reprint 1

FILED
July 23,2021
MOLLY C. DWYER, Clerk
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Henryk S. Borecki,
Plaintiff-Appellant,
v.
United States Department of Homeland
Security; Arizona Department
of Transportation,

No. 21-15572
D.C. No. 2:21 -cv-00415-MTL
District of Arizona
Phoenix
ORDER

Defendants-Appellees.
Before: CLIFTON, MURGUIA, and BRESS, Circuit Judges.
Appellant’s motion for reconsideration (Docket Entry No. 3) is denied. See
9th Cir. R. 27-10. This denial is without prejudice to appellant filing a new notice
of appeal from a final order or judgment entered by the district court. See WMX
Techs., Inc. v. Miller, 104 F.3d 1133, 1136 (9th Cir. 1997)(en banc)(“[W]hen a
district court expressly grants leave to amend, it is plain that the order is not final.
Something more is both anticipated and required. In that event, a further step must
be taken to ‘fix an unequivocal terminal date for appealability,’ and to avoid ‘the
hazards of confusion or misunderstanding as to the time of appeal.’ A,fmal
judgment must be obtained before the case becomes appealable.” (internal citation
omitted).
The Clerk will send a copy of this order to the district court.
No further filings will be entertained in this closed case.

Reprint 2

FILED
AUG 02 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
HENRYK S. BORECKI,
Plaintiff-Appellant,
v.
UNITED STATES DEPARTMENT OF
HOMELAND SECURITY; ARIZONA
DEPARTMENT OF TRANSPORTATION,

No. 21-15572
D.C. No. 2:21 -cv-00415-MTL
U.S. District Court for Arizona,
Phoenix

MANDATE

Defendants-Appellees.
The judgment of this Court, entered April 14, 2021, takes effect on this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

Reprint 3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Henryk S. Borecki,
Plaintiff,

No. CV-21 -00415-PHX-MTL
ORDER

v.
United States Department of Homeland
Security, et al.,
Defendants.
On 7/28/2021, this Court ordered Plaintiff to file an amended complaint by
8/11/2021. (Doc.l 1.) Plaintiff has not filed an amended complaint and the deadline to do
so has expired. Accordingly,

•<,

IT IS ORDERED that this action is dismissed without prejudice for failure to
prosecute pursuant to Rule 41(b). The Clerk of the Court shall enter judgment
accordingly and close this case.
Dated this 17th day of August, 2021.

Michael T. Liburdi
United States District Judge

Reprint 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Henryk S. Borecki,

NO. CV-21-00415-PHX-MTL
JUDGEMENT OF DISMISSAL IN A
CIVIL CASE

Plaintiff,

v.
United States Department of Homeland
Security, et al.,
Defendants.
Decision by Court. This action came for consideration before the Court. The
issued have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant to the Court’s order filed
August 17, 2021, Plaintiff to take nothing, and the complaint and action are dismissed
without prejudice for failure to prosecute.
Debra D. Lucas
District Court Executive/Clerk of Court
August 17, 2021
s/Rebecca Kobza
By Deputy Clerk

